HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services At The Berkshire Medical
Center,"(A-01-03-00514)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services At The Berkshire Medical Center," (A-01-03-00514)
December 8, 2003
Complete Text of Report is available in PDF format (403 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly
reimbursed the Berkshire Medical Center (Hospital) for outpatient cardiac rehabilitation services.  We found that
the Hospital relies upon physicians working nearby in the Hospital and in its emergency department for physician supervision
coverage of its outpatient cardiac rehabilitation program.  However, medical record documentation we examined showed
little evidence that a physician personally sees a patient periodically throughout the program.  In addition, we
reviewed a sample of 10 Medicare beneficiaries who received outpatient cardiac rehabilitation services during calendar
year 2001.  We found that medical and billing records provided by the Hospital in support of three beneficiaries
receiving cardiac rehabilitation services totaling $1,138 did not always support the diagnoses used to establish the
patients’ eligibility for cardiac rehabilitation.  We recommended that the Hospital work with the fiscal intermediary
to ensure that the Hospital’s outpatient cardiac rehabilitation program is being conducted in accordance with Medicare
coverage and billing requirements.  The Hospital generally agreed with our recommendation.